HHS/OIG-Audit--"Review of General and Administrative Costs Claimed by Visiting Nurse Association of Metro Atlanta, (A-04-94-01081)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of General and Administrative Costs Claimed by Visiting Nurse Association of Metro Atlanta," (A-04-94-01081)
October 12, 1995
Complete
Text of Report is available in PDF format (1.6 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report identifies unallowable General and Administrative costs of $516,632 claimed by the Visiting Nurse Association
of metro Atlanta (VNA). About 78 percent of these costs were allocated to the Medicare program. Medicare regulations generally
require that to be allocable, costs must be reasonable, necessary for the maintenance of the health care entity, and related
to patient care. Our review showed that VNA claimed both home office and provider level costs that were unallowable according
to Medicare regulations.